IN THE SUPREME COURT OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Adverse Party.

v.
JEREMIAH KYLE BLABER,
Defendant-Relator.

Multnomah County Circuit Court
19CR32657
N.

S068477
ORDER GRANTING MOTION TO WAIVE FILING FEE AND DENYING PETITION
FOR WRIT OF MANDAMUS
Upon consideration by the court.
The motion to waive the filing fee is granted. The petition for writ of mandamus is
denied.

MARTHA L. WALTERS
CHIEF JUSTICE, SUPREME COURT
6/24/2021 10:11 AM

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Adverse Party

[ X ] No costs allowed

c: Benjamin Gutman
Carson L Whitehead
Jeremiah Kyle Blaber
Hon. Nan G. Waller
od

ORDER GRANTING MOTION TO WAIVE FILING FEE AND DENYING PETITION
FOR WRIT OF MANDAMUS
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

IN THE SUPREME COURT OF THE STATE OF OREGON
STATE OF OREGON,
Plaintiff-Adverse Party
v.
JEREMIAH KYLE BLABER,
Defendant-Relator.
Multnomah County Circuit Court
19CR32657
S068477
APPELLATE JUDGMENT
Upon consideration by the court.
The motion to waive the filing fee is granted. The petition for writ of mandamus is
denied.

June 24, 2021
DATE

Is/ Martha L. Walters
Chief Justice, Supreme Court

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Adverse Party.
[ X ] No costs allowed.
Appellate Judgment
Effective Date: July 21, 2021

Supreme Court
(seal)

jjr

APPELLATE JUDGMENT
REPLIES SHOULD BE DIRECTED TO: State Court Administrator,
Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

IN THE CIRCUIT COURT
FOR THE COUNTY OF MULTNOMAH

CASE NO: 19CR32657

STATE OF OREGON
Plaintiff,

ORDER AMENDING AUTHORIZATION
OF INVOLUNTARY ADMINISATRATION
MEDICATION

V.

JEREMIAH KYLE BLABER
Defendant.

This matter came before the Court for a hearing at the request of the State to amend the order authorizing administration
of involuntary medication issued on 12/14/20. The State was represented by Melissa Marrero and the Defendant was
represented by Dylan Potter. The Court heard testimony from Dr. Les Christenson, Defendant’s treating psychiatrist at
Oregon State Hospital (OSH) and received a letter from OSH outlining the request for a change of medication authorized
for involuntary administration as well as a change in the method of administration.
The Court incorporates all of the findings of the attached 12/14/20 order authorizing involuntary medication into this
order. The 12/14/20 order was issued after hearings held on August 18, November 9, 10, 23 and December 7, 2020. The
12/14/20 order authorized only oral medications. After the 12/14/20 order was issued, Defendant has refused to take any
of the medications authorized with the exception of one dose of Abilify that he took on December 28, 2020. Since then he
has refused to take any medications. Based upon the testimony, evidence and argument at the hearing on 1/15/21 and the
testimony, evidence argument and findings from the previous hearings the Court finds that:
(1) Involuntary medication of the defendant is not otherwise authorized by Law;
(2) There are important state interests at stake in the prosecution of the defendant;
(3) The recommended medication will significantly further the important state interests
because:
a. It is substantially likely that the medication will render the defendant fit to
proceed
b. It is substantially unlikely that the medication will cause side effects that will
impair the fairness of the criminal proceeding
(4) Involuntary administration of medication is necessary to further the important state
interests because there are no alternative, less intrusive treatments that would
produce the same results as the medications ;
and
(5) Administration of the medication is medically appropriate because it is in the
Defendant’s best medical interest in light of the Defendant’s medical condition.
19CR32657

A i-3

Based upon the Court’s previous findings and the evidence from the January 15,2021 hearing and all prior hearings on
this matter, the Court is approving the State’s request for the change of medications and methods of administration as
outlined below.
Based on the Court’s findings, it is therefore ORDERED:
1. While committed to the custody of the superintendent of OSH pursuant to ORS 161.370, OSH may involuntarily
administer the following medication or class of medications for purposes of restoring the Defendant’s competency to
stand trial:
Medication Name

Ability / Aripiprazole (generic)

Recommended Maximum
Dose

40 mg/day orally or 20 mg per day short-acting IM injection or long-acting

Route of Administration

Oral or IM injectable

Purpose

To treat symptoms of delusional disorder for the purpose of competency

injectable every 28 days

restoration
Benefits

To treat symptoms of delusional disorder for the purpose of
competency restoration

Potential Side Effects:

Insomnia, restlessness, akathisia, weight gain, high blood
sugar/diabetes, low white blood cell count, difficult swallowing,
headache, Parkinsonism and dyskinesias (including tardive dyskinesia),
Neuroleptic malignant syndrome and QTc prolongation, seizures,
unusual urges/behaviors________________________________________

Medication Name

Haldol/Haloperidol (generic)

Recommended Maximum Dose

40 mg/day orally or 20 mg per day short acting IM injections or long-acting
decanoate injectable 200 mg every 28 days
Oral or short-acting IM injections or long acting decanoate IM injections

Route of Administration
Purpose

To treat symptoms of delusional disorder for the purpose of competency
restoration

Benefits

To treat symptoms of delusional disorder for the purpose of competency
restoration

Side Effects

Muscle stiffness in arms and legs, physical and/or mental restlessness such
as in ability to still (akathisia), tremors in hands or fingers, other
involuntary movement of various muscle groups such mouth, lips, tongue,
jaw which could be tardive dyskinesia or more rarely dystonic-stuck
muscles of the eyes or other muscle groups including difficulty swallowing.
Constipation, dry mouth, difficulty urinating. Rare cases of neuroleptic
malignant syndrome, seizures._______________________________________

Medication Name

Geodon/Ziprasidone (generic)

Recommended Maximum dose

160 mg/day orally or 40 mg/day short-acting IM injection

Route of Administration

Oral or short-acting IM injection

Purpose

To treat symptoms of delusional disorder for the purposes of competency restoration

19CR32657

Benefits

To treat symptoms of delusional disorder for the purposes of competency restoration

Side Effects

Muscle stiffness in arms and legs, physical and/or mental restlessness such as
inability to sit still (akathisia), tremors in hands and fingers, other involuntary
movement of various muscle groups such as the mouth, lips, tongue, jaw which could
be tardive dyskinesia or more rarely dystonic-stuck muscles of the eyes or other
muscle groups including difficulty swallowing. QTc prolongation which could lead to
serious cardiac arrythmia.____________________________________________

Medication Name

Risperdal

Maximum Medication Dose

6 mg/day orally or 50 mg long acting IM injection every 14 days

Purpose

To treat symptomsof delusional disorder for the purposes of competency restoration

Benefits

To treat symptoms of delusional disorder for the purposes of competency restoration

Side Effects

Muscle stiffness in arms and legs, physical and/or mental restlessness such as
inability to sit still (akathisia), tremors in hands or fingers, other involuntary
movement of various muscle groups such as the mouth, lips, tongue, jaw, which
could be tardive dyskinesia or more rarely dystonic-stuck muscles of the eyes or
other muscle groups including difficulty swallowing. Also, possible increase in
prolactin hormone levels which can result in nipple discharge (galactorrhea) as
well as breast tissue enlargement in males (gynecomastia).________________

2. The superintendent of OSH shall notify the Court if this court order should be altered as the result of changes in
circumstances, including Defendant’s response to the authorized medications.
3. This order shall expire when Defendant’s commitment to the custody of OSH is terminated under the provisions of
ORS 161.370.
Defendant requested that the Court stay this order. His attorney did not join in the request. The State objects to stay of the
order. Having considered the arguments and factors to be considered in staying an order the Court denies Defendant’s
request.
Signed: 3/26/2021 12 42 PM

li
Circuit Court Judge Nan G. Waller

19CR32657

(

IN THE CIRCUIT COURT OF THE STATE OF OREGON
FOR THE COUNTY OF MULTNOMAH
STATE OF OREGON

Plaintiff,

v.

(

JEREMIAH KYLE BLABER
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CASE NO: 19-CR-32657
DA NO: 2402774-ID
SELL ORDER AUTHORIZING THE
INVOLUNTARY ADMINISTRATION
OF MEDICATIONS FOR THE
PURPOSE OF RESTORING
DEFENDANT’S TRIAL COMPETENCE

This matter came before Judge Nan Waller on five separate dates: August 18, November 9, 10,23,
and December 7, 2020, for a determination of whether the State may involuntarily administer
medications to Defendant for the purpose of restoring Defendant’s trial competence in relation to
the below charges. Defendant appeared with counsel, Dylan Potter (OSB 104855). The State was
represented by Deputy District Attorney Melissa Marrero (OSB 123846).
(

The defendant is charged with the following offenses:

1.
2.
3.
4.
5.
6.
7.
8.
9.

Crime Name:
Assault II
Unlawful Use of a Weapon
AttempttoCommitAss.il
Unlawful Use of a Weapon
UEMV
Att. To Commit Class C Fel.
Att. To Commit Class C Fel.
Crim Mis, II
Dis. Conduct II

Felonv/Misdemeanor:
Felony
Felony
Felony
Felony
Misd.
Misd.
Misd.
Misd.
Misd.

Class:
B
C
C
C

A
A
A
A
B

Incident Date:
5/18/2019
5/18/2019
5/18/2019
5/18/2019
5/18/2019
5/18/2019
5/18/2019
5/18/2019
5/18/2019

THE COURT FINDS BY CLEAR AND CONVINCING EVIDENCE:
Defendant has been at Oregon State Hospital (OSH) for over a year under an ORS 161.370
commitment order for restoration to competency. At the outset of the hearing the Court was
asked by the State to decide whether Defendant even has a qualifying mental health disorder
based upon an opinion of his treating psychiatrist, Dr. Les Christenson. Dr. Christenson testified
that he does not believe that Defendant suffers from a delusional disorder and, therefore, is able
to aid and assist.
Based upon the forensic evaluations of Defendant done over the course of this case (both the
evaluation done that led to Defendant’s commitment and the 3 evaluations conducted while
Defendant has been at OSH) and the testimony of Dr. Ingram, the Court finds that Defendant
1
19-CR-32657

cf 6 i-f-

f

does have a qualifying mental health disorder (delusional disorder) and as a result is unable to
aid and assist in his own defense.
In her evaluations and testimony, Dr. Ingram distinguished Defendant’s conspiratorial beliefs
from his delusional thought process. The former, she explains, are normative beliefs in some
portion of the population, the latter are “evidenced by his abnormal conviction and preoccupation
with the beliefs.” Dr. Ingram evaluation 12/19/19, p. 5.

(

Dr. Ingram found that Defendant had good factual knowledge of court-related information but
that Defendant’s rational understanding of his case, his ability to work with his attorney, and
make decisions in his case continue to be severely impacted by his delusion beliefs. Over the
course of the evaluations Dr. Ingram conducted, Defendant has been consistent in reporting that
the current charges were falsified by the government in order to prevent him from revealing his
discoveries about the government. Defendant has questioned whether his lawyer and the Court
are part of the conspiracy and has been firm in his belief that the charges are a hoax and that
evidence that doesn’t exist is further proof of the government’s efforts to suppress his
discoveries.
Dr. Ingram testified that during his OSH commitment Defendant has consistently refused
medication because he does not believe that he has a mental illness. In her December 2019
evaluation, Dr. Ingram found that Defendant’s symptoms that impair his ability to aid and assist
were unlikely to remit without administration of antipsychotic medication.
On June 9, 2019, Dr. Ingram competed her 3rd evaluation of Defendant, prompted by an email on
May 30, 2019, from Defendant’s new psychiatrist, Dr. Les Christianson, asking that an early
evaluation of Defendant be conducted because it was unlikely that Defendant would improve or
be restored without forced medication. (Defendant had moved to a new unit on May 27, 2020,
for administrative reasons and Dr. Christianson became his psychiatrist). Dr. Christianson had
noted in Defendant’s medical record on May 30, 2019, that Defendant “has no insight into his
delusion.. .prognosis is poor unless pt returns to OSH on a Sell order for involuntary medication
treatment for the sole purpose of trial competency restoration.” Dr. Ingram Report 7/1/20, p. 3.

I

On June 10, 2020, Dr. Christianson emailed Dr. Ingram to tell her that he no longer supported a
Sell hearing because he no longer believed Defendant had a mental illness. On June 26, 2020,
Dr. Christianson wrote in Defendant’s medical record that he believed Defendant had suffered a
brief psychotic episode at the time of the event that led to the charges but that the delusions
leading to the events were no longer active. He wrote that he believed Defendant to be trial
competent.
Notwithstanding Dr. Christianson’s opinion, in her report dated July 1, 2020, Dr. Ingram found
in her 3rd competency evaluation of Defendant that he did have a qualifying mental disorder
(delusional disorder, mixed persecutory/grandiose type). Dr; Ingram found that while
Defendant’s delusional beliefs are related to historical experiences, they remain active and
impede his ability to aid and assist in his defense. Dr. Ingram found that without a court order for
administration of involuntary medication, there was no substantial likelihood that Defendant
would gain fitness to proceed within the foreseeable future.
2
19-CR-32657

r
When Dr. Christenson testified in November, he said he had become more convinced since his
August testimony that Defendant does not suffer from a mental illness and that as a result, he
would not administer involuntary medication if it was court ordered. It should be noted that
Dr. Christenson did not conduct competency evaluations of Defendant and is not a certified
evaluator.
The Court finds Dr. Ingram’s testimony on the issues of Defendant’s diagnosis and competency
to be persuasive. Dr. Ingram is a Certified Forensic Evaluator and has conducted 3 forensic
evaluations of Defendant over the course of a year. She has reviewed the original evaluation of
Defendant conducted by Dr. Milkey, that was the basis for the Court’s commitment to OSH for
competency restoration.
In her evaluation of Defendant, Dr. Ingram found Defendant to have good knowledge of the
adversarial legal system, trial process, the various options for resolution of his cases, his rights
and possible sentences. She also found that Defendant had a clear understanding of the charges
against him. However, with regard to the other two competency prongs she found that:

(

(

“Mr. Blaber’s delusional belief system continues to impact his rational
appreciation of his legal circumstances. His entire understanding of the alleged
events is based in his paranoid, grandiose, and religious beliefs surrounding that
time period. He believes that he has been ‘set up’ by various unknown
government entities and that his charges are ‘falsified.’ He noted that this was
done to ‘discredit’ him or to ‘silence’ him. He further believes that his current
finding of incompetency, and associated hospitalization, is also part of an effort to
‘discredit’ him. In this way, he believes he is still experiencing repercussions of
the conspiracy against him. All his preferred and identified legal strategies are
Despite reviewing the available
directly related to his delusional beliefs
evidence with him in detail during his last forensic evaluation, he continues to
irrationally assert that there is additional exculpatory evidence available. He
believes that the lack of this evidence is proof of the conspiracy against him. Hi[s]
understanding of his legal case is based in his delusional belief system,
dependence on irrational circumstantial evidence, as well as ideas of reference,
confabulation, and magical thinking.
The majority of the current evaluation was spent engaging Mr. Blaber in
conversation about his beliefs and how they are connected to his current legal
circumstances. He demonstrated no flexibility or willingness to consider other
legal perspectives. He noted that his attorney has had similar conversations with
him, and that he continues to believe that his attorney is working with the
prosecution and is not working in Mr. Blaber’s best interests.... He remained
acutely delusional.”
The Court also engaged in a colloquy with Defendant and allowed him to make a
statement. While it is true that Defendant is articulate, pleasant, and knowledgeable about
3

19-CR-32657

the legal system, the Court is convinced from the evidence presented as well as the
colloquy with Defendant that he does have a qualifying mental disorder that continues to
render him incompetent.
The Court next turns to the Sell criteria.
The Court has authority to order forced medication for the purposes of restoring competency for
a defendant if the court finds certain factors set out in United State v. Sell, 539 U.S. 166 (2003).
The Oregon Supreme Court adopted the Sell factors in State v. Lopes, 355 Or. 72 (2014). The
Oregon Supreme Court specifically made it clear that the factors are not to be balanced but are
independent requirements each of which must be found true before involuntary medication of
psychotropic drugs may be considered constitutionally permissible. The standard of proof is
clear and convincing. The Oregon Legislature codified the Sell and Lopes criteria for the
administration of involuntary medication in the context of competency proceedings in ORS
161.372:
A) Involuntary medication is not otherwise authorized by law;
B) There are important state interests at stake in the prosecution of the defendant;
C) The recommended medication will significantly further the important state interests
because:
(i)It is substantially likely that medication will render defendant fit to proceed and
(ii)lt is substantially unlikely that the medication will cause side effects that will
impair the
fairness of the criminal proceeding
D) Involuntary administration of medication is necessary to further the important state
interests because there are no alternative, less intrusive treatments that would produce the
same result as medication and
E) Administration of the medication is medically appropriate because it is in the defendant’s
best medical interest in light of the defendant’s medical condition.
The Court finds that the State has met its burden of proving each of the required factors for
administration of involuntary medication of Defendant by clear and convincing evidence. The
Defense concedes involuntary medication is not otherwise authorized by law for Defendant.
Defendant has been committed to OSH for more than a year and there has been no progress in
restoring him to competency despite his numerous individual sessions with his unit psychologist
and treating psychiatrist and the participation in group sessions and classes Defendant has
refused to take any antipsychotic medications. Defendant does not qualify for administration of
involuntary medication under OSH’s administrative process because in the hospital setting he
does not present as a danger to himself or others. The Court finds that involuntary medication of
Defendant is not otherwise authorized by law and that there is no less intrusive method to restore
defendant to competency.
The Defense also concedes there are important state interests at stake as that has been defined in
case law. Defendant is charged with nine crimes, the most serious is Assault II, a Class B Felony
and a Measure 11 charge. Both the nature of the charge, allegedly causing physical injury by
means of a dangerous weapon, and the mandatory sentence of 70 months, as a Measure 11
4
19-CR-32657

s’

\

••

charge, support a finding by clear and convincing evidence that the State’s interest in prosecuting
Defendant is serious.
The dispute in this case is whether there is clear and convincing evidence that it is substantially
likely that medication will restore Defendant to competency and whether that medication is
medically appropriate because it is in Defendant’s best medical interest in light of his medical
conditions. Given Dr. Christenson’s position on administration of involuntary medication for
Defendant, Dr. Ingram consulted with Dr. Farris, Director of Forensic Evaluation Services at
OSH, on the administration of involuntary medication for defendant. Dr. Farris is a psychiatrist
and a certified Forensic Evaluator. Although not Defendant’s treating psychiatrist, Dr. Farris, as
part of his consultation with Dr. Ingram, reviewed the evaluations of Defendant, other OSH
records of Defendant, and the literature on the use of antipsychotic medication for restoration of
individuals with delusional disorders.

(

Dr. Farris testified, based on his consultation, review of the records, experience as a psychiatrist
and review of the research, that the only option left to attempt to restore Defendant to
competency is administration of antipsychotic medication. Dr. Farris opined that administration
of antipsychotic medication is substantially likely to render Defendant competent. Dr. Farris has
prescribed medication for delusional disorders for patients who have been civilly committed with
positive results. Dr. Farris testified that antipsychotic medication could assist Defendant by
lessening the rigidity in his thinking concerning delusion that is a barrier to restoration. He
testified that it would take approximately 2 to 3 months for Defendant to reach a therapeutic
level of medication. Beyond restoration to competency Dr. Farris testified that administration of
antipsychotic medication will benefit Defendant’s general wellbeing by reducing his anxiety.
At the hearing on November 23,2020, the Court requested OSH arrange for Defendant to be
examined by a psychiatrist at the Oregon State Hospital for a determination of whether
antipsychotic medication is medically appropriate for Defendant to treat his delusional disorder
and whether administration of medication is in Defendant’s best medical interest in light of
Defendant’s medical conditions. Dr. Farris had reviewed Defendant’s records but had not
examined Defendant. Since Dr. Christenson testified that he would not administer medication to
defendant if a Sell order is signed, the Court wanted to hear from a psychiatrist who examined
Defendant on the efficacy of administration of involuntary medication for Defendant.

{

\

At the hearing on December 7, 2020, the Court heard testimony from Dr. Nanton, Interim Chief
of Psychiatry at OSH. Dr. Nanton reviewed all of the forensic evaluations of Defendant,
reviewed all of Defendant’s medical records, and examined Defendant over 3 meetings.
Dr. Nanton submitted a report dated December 3, 2020, outlining his recommendations.
Dr. Nanton found that Defendant meets the criteria for a diagnosis of Delusional Disorder and
that administration of antipsychotic medication is the appropriate treatment for the diagnosis.
Dr. Nanton acknowledged that there has been controversy surrounding treatment of Delusional
Disorder with medication given the small numbers of people in the studies.
However, given the data available, Dr. Nanton testified that medication does appear to be an
effective restoration treatment for persons with Delusional Disorders. Dr. Nanton said that the
research indicates medication has a 75% efficacy rate for persons with Delusional Disorder, this
5
19-CR-32657

r

is similar to the rate of restoration for schizophrenia. Based upon a review of the studies admitted
and the testimony of all of the doctors who testified, including Dr. Christenson, the Court finds
that administration of antipsychotic medication to Defendant is substantially likely to restore him
to competency.
The Court further finds by clear and convincing evidence that it is substantially unlikely that side
effects of the recommended medications will impair the fairness of the criminal proceedings. The
Defense argues that the State has not met its burden to show that the recommended medications
are in the best medical interest of Defendant given his medical condition. Dr. Nanton testified
that “the primary indication for the use of medication is restoration of competency. Mr. Blaber’s
suffering is related to continued hospitalization and restriction of his freedom, and his
impairment in the hospital setting is related to the trial process. For this reason the analysis of
risk and benefit is necessarily directly informed by his incompetency to stand trial. The primary
suffering to he alleviated is due to incompetency resulting to lack of freedom. Similarly,
assessment of risk is limited by lack of time in the community to determine if symptoms might
become more prominent in that setting. He is otherwise not in marked distress and is able to
attend to his in-hospital daily needs without notable impairment.”
Dr. Nanton did make some modifications of Dr. Farris’s medication recommendations based
upon Defendant’s weight, hypertension, and risk of diabetes. Dr. Nanton does not find that
olanzapine or clozapine are appropriate but does recommend aripiprazole as the first medication
to try, risperidone as the next medication to try if aripiprazole is not successful in restoring
Defendant and finally quetiapine as the third medication in the event that risperidone or
aripiprazole fail to restore Defendant to competency. Based upon Dr. Nanton’s testimony the
Court finds that it is in Defendant’s best medical interest to be restored through the
administration of antipsychotic medication.
Based on the Court’s findings, it is therefore ORDERED:
1. While committed to the custody of the superintendent of OSH pursuant to ORS 161.370, OSH
may involuntarily administer the following medication or class of medications for purposes of
restoring the Defendant’s competency to stand trial in the listed order:

1) Abilify / Aripiprazole (generic)

Medication Name
Recommended Maximum

60 mg/day

Route of Administration

Oral

Purpose

To treat symptoms of delusional disorder

Potential Side Effects:

Insomnia, restlessness, akathisia, weight gain, headache,
Parkinsonism, and dyskinesias (including tardive
dyskinesia), Neuroleptic malignant syndrome and QTc
prolongation___________

v.

6
19-CR-32657

2) Risperdal / Risperidone (generic)

Medication Name
Recommended Maximum

16 mg/day

Route of Administration

Oral

Purpose

To treat symptoms of delusional disorder

Potential Side Effects:

Weight gain, elevated heart rate, galactorrhea,
cholesterol/triglycerides, akathisia, Parkinsonism, and
dyskinesias (including tardive dyskinesia), Neuroleptic
malignant syndrome and QTc Prolongation_________

{
3). Seroquel / Quetiapine (generic)

Medication Name
Recommended Maximum

1200 mg/day

Route of Administration

Oral

Purpose

To treat symptoms of delusional disorder

Potential Side Effects:

Dry mouth, headache, weight gain, elevated heart rate,
elevated cholesterol/triglycerides, akathisia, Parkinsonism,
and dyskinesias (including tardive dyskinesia), Neuroleptic
malignant syndrome and QTc Prolongation

\

2. The superintendent of OSH shall notify the Court if this court order should be altered as the
result of changes in circumstances, including Defendant’s response to the authorized
medications.
3. This order shall expire when Defendant’s commitment to the custody of OSH is terminated
under the provisions ofORS 161.370.

Signed: 12/14/2020 04:03 PM

l

Date Signed
Case No: 19-CR-32657

Circuit JMurtJjudge - Nan G. Waller
Circuit Court Judge Nan G. Waller

l
7
19-CR-32657

Additional material
from this filing is
available in the
Clerk's Office.

